September 29, 2008

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Scheduled
         Maintenance Service in the Western Area
         (Report Number DR-AR-08-008)

This report presents the results of our self-initiated audit, Vehicle Maintenance
Facilities (VMF) – Scheduled Maintenance Service in the Western Area (Project
Number 08XG008DR000). The overall objectives were to assess whether the
Western Area accomplished the required vehicle scheduled maintenance, and
whether they integrated both VMFs and local commercial resources for optimum
efficiency. Click here to go to Appendix A for additional information about this
audit.

Conclusion

The Western Area completed nearly all required scheduled preventive
maintenance (SPM),1 and was proactive in managing vehicle maintenance.
However, management could further optimize VMF efficiency by more effectively
using VMF and commercial resources. Better optimizing its resources could
save the Western Area an estimated $14 million over 10 years.

Scheduled Maintenance Performance

Western Area VMF units and local commercial vendors (LCVs) completed 99
percent of the required SPMs during fiscal year (FY) 2007. Four VMF units
completed all of the SPMs, while the other four VMF units ranged between 95
and 99 percent of the required SPMs. Management attributed the missing or
past due SPMs to unforeseen personnel issues and the need to eliminate the
backlog of SPMs from the previous year.

Without completing all required scheduled maintenance and repairs, the Postal
Service’s vulnerability to vehicle breakdowns could increase, creating mail delays
and service problems. Further, the number of vehicle accidents could increase,
which would raise costs and potentially affect the well-being of employees and

1
 An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the
vehicle or meet safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled Maintenance                                       DR-AR-08-008
 Service in the Western Area


the public. Since the Postal Service does not plan to begin replacing its current
fleet of Long Life Vehicles (vehicles that are more than 20 years old) until 2018,
we believe it is critical that these vehicles receive SPMs in a timely manner.
Click here to go to Appendix B for additional information about this topic.

We recommend the Vice President, Western Area Operations, direct district
managers to:

1. Require vehicle maintenance facility officials to complete all required
   scheduled maintenance, and immediately conduct any missing or past due
   maintenance.

Optimum Use of Resources

The Western Area did not always optimize its resources to ensure maintenance
and repair funds were expended in the most efficient and cost effective manner.
We found maintenance officials sometimes used LCVs for vehicle maintenance
and repairs when using VMF resources would have been more efficient and
economical. Likewise, VMF resources were sometimes used when LCVs would
have been more efficient and economical. Additionally, VMF officials primarily
used maintenance employees to shuttle vehicles between facilities for
maintenance and repairs when more economical means existed.

The following factors contributed to these conditions. Although VMF units had a
vehicle maintenance plan, it did not include provisions for all required SPM and
repairs for all vehicles. Specifically, the vehicle maintenance plans did not fully
consider:

         o The optimal combination of VMF resources and LCVs for performing
           scheduled maintenance and repairs.

         o The cost effectiveness of using LCVs instead of VMF resources to
           shuttle vehicles between facilities for maintenance and repairs.

In addition, the area Vehicle Maintenance Program Analyst position was not
organizationally aligned to be conducive for the most effective management of
the vehicle maintenance program.2 Click here to go to Appendix C for
additional information on optimum use of resources.

As a result, the Western Area expended more resources than necessary to
complete vehicle maintenance and repairs. By optimizing its resources, the
Western Area could potentially reduce operating costs about $1.4 million
annually. These efficiencies, when projected for the 23 VMFs in the Western


2
  This issue requires action by Postal Service Headquarters and will be addressed in a national capping
report.


                                                     2
Vehicle Maintenance Facilities – Scheduled Maintenance                   DR-AR-08-008
 Service in the Western Area


Area, could save approximately $14 million over a 10-year period. Click here to
go to Appendix D for our detailed analysis of the monetary impact.

We recommend the Vice President, Western Area Operations, direct district
managers to:

2. Work with vehicle maintenance facility officials to modify the annual vehicle
   maintenance plan to provide for all scheduled vehicle maintenance to better
   manage and improve efficiency. The plan should:

        •   Maintain the most efficient combination of vehicle maintenance facility
            and commercial resources based on geographical location and costs.

        •   Use the Postal Service’s national vehicle shuttle agreement or other
            local commercial shuttle services, when cost effective, for transporting
            vehicles to and from maintenance facilities.

Management’s Comments

Western Area officials agreed with our findings and recommendations.
Regarding recommendation 1, management directed district managers to
immediately develop plans to complete all scheduled maintenance in arrears and
maintain a current preventive maintenance status. For recommendation 2, they
agreed to develop district action plans within 30 days to address scheduled
maintenance issues.

Management stated they could not commit to the actual dollar savings amounts
specified in the audit report. However, in subsequent discussions, management
agreed in principle with the potential monetary impact and with capturing savings
through improved efficiencies as they implement the recommendations. We
have included management’s comments in their entirety in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers
management’s comments responsive to the recommendations and the corrective
actions should resolve the issues identified in the report.

The OIG considers recommendation 2 significant, therefore, it requires OIG
concurrence before closure. Consequently, the OIG requests written
confirmation when management completes corrective actions. This
recommendation should not be closed in the follow-up tracking system until the
OIG provides written confirmation the recommendation can be closed. We will
report $14,251,384 of funds put to better use in our Semiannual Report to
Congress.




                                               3
Vehicle Maintenance Facilities – Scheduled Maintenance                 DR-AR-08-008
 Service in the Western Area


We appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Rita Oliver, Director,
Delivery, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Wayne W. Corey
    LaMese L. Hurrell
    Lloyd H. Wilkinson
    Selwyn D. Epperson
    Douglas H. Morrow
    Lawrence K. James
    Dallas W. Keck
    Kenneth S. McArthur
    Michael C. Holloway
    Katherine S. Banks




                                               4
Vehicle Maintenance Facilities – Scheduled Maintenance                  DR-AR-08-008
 Service in the Western Area


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested more than $3 billion in vehicle assets for the
purpose of transporting and delivering the mail. The vehicle inventory consists of
219,522 delivery, transport, and administrative vehicles. Delivery and collection
vehicles (see the examples in Figure 1) account for 195,211 or about 89 percent
of the total fleet. The Postal Service acquired the majority of these vehicles
between 1987 and 1994 and planned to maintain them for 24 years. About 7,700
of these vehicles purchased in 1987 are approaching the end of their useful life.
However, the Postal Service recently stated that capital constraints now dictate
that many of these vehicles must stay in service until 2018 — 7 years more than
the planned lifespan.

                                      Figure 1
                Delivery and Collection Vehicles in VMFs for SPM




                 Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these
assets in a technically reliable, safe, clean, and neat condition for efficient mail
transportation. Vehicle maintenance includes selecting and training maintenance
technicians; providing garages, tools, and equipment; performing repairs; and
monitoring and maintaining preventive maintenance standards. The geographic
location of VMFs and auxiliary VMFs varies in each area as needed to support
vehicle maintenance and reduce transportation costs. Auxiliary VMFs were
established for situations where vehicle maintenance requirements exceed VMF
resources or when shuttle time or geographical distances warrant the use of an
auxiliary VMF.

Area officials are responsible for validating staffing requirements for
vehicle-related positions and ensuring an adequate scheduled maintenance
program. Vehicle maintenance managers have overall responsibility for
oversight of all maintenance and repair services performed at VMF units, as well
as any work contracted to commercial vendors. Although the VMF manager has
overall responsibility for vehicle maintenance, vehicles are usually assigned to a
Vehicle Post Office (VPO). VPOs can be post offices, branches, stations,


                                               5
Vehicle Maintenance Facilities – Scheduled Maintenance                               DR-AR-08-008
 Service in the Western Area


associated offices, or other delivery and support facilities. Post office officials at
VPOs can also contract with LCVs for maintenance and repair services, but they
are required to document the repairs and obtain the VMF manager’s approval for
repairs and services costing more than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical
manner possible. The handbook requires a maintenance plan that provides for
regular examination and service of Postal Service-owned vehicles. VMF
managers must prepare a vehicle maintenance plan designating where and
when each vehicle will receive scheduled maintenance. The handbook also
emphasizes preventive or scheduled maintenance over reactive or unscheduled
maintenance. (See Appendix F, “Scheduled Maintenance Process,” for a
flowchart.)

The Postal Service also established a Model Vehicle Maintenance Facility
Performance Review Program. The review program is an integral part of VMF
operations, and is a key tool for determining the efficiency of a unit at a given
time for identifying areas that need corrective action. Districts must ensure that
self-reviews are performed in all VMFs on a quarterly basis. A VMF must
achieve a score of 85 or more to be certified. The area must certify or recertify
each unit at least every 3 years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to
code and track costs. VMAS is a computer-based support system designed to
collect, process, store, present, and communicate vehicle maintenance data.
The table below shows VMF expenses, including commercial vendors’ expenses,
for FY 2007.

             Table 1. Maintenance Expenditures for FYs 2007 by Area

                                      VMF and Commercial Expenditures
                                   Commercial           VMF
              Postal Service     Vendor Expenses     Expenses in    Total Expenses
             Area of Operation      in FY 2007         FY 2007        in FY 2007
             Southeast                $13,867,484    $52,648,111      $66,515,595
             Great Lakes               15,152,866     46,536,525       61,689,391
             Eastern                   12,213,149     45,085,152       57,298,301
             Western                   10,382,055     45,808,493       56,190,548
             Pacific                    9,105,547     42,819,217       51,924,764
             Northeast                 10,821,346     37,860,317       48,681,663
             New York Metro            12,433,942     36,814,803       49,248,745
             Southwest                  7,194,386     36,503,347       43,697,733
             Capital Metro              7,643,667     32,808,458       40,452,125
             Total                     $98,814,442   $376,884,423     $475,698,865
            Source: Postal Service Category Management Center




                                               6
Vehicle Maintenance Facilities – Scheduled Maintenance                                      DR-AR-08-008
 Service in the Western Area


OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of this audit were to assess whether the Western Area
accomplished all required scheduled maintenance, and whether they integrated
both VMFs and local commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle
service files from eight of the 23 VMFs in the Western Area. We documented the
scheduled maintenance and number of SPMs required and completed. We also
reviewed the xxxxxxxxxxx xxxxxxxxxx xxxxxxxxxxx xxxxxx xxxxxxxx to analyze
vehicles in “maintenance in arrears” status. We also obtained and reviewed
xxxxxxxxx xxxxxxxxxx xxxxxxxxxxx xxxxxx xxxxxxxxxx data on the complement
of vehicle maintenance technicians.

We obtained a random sample of eight of the Western Area VMFs from all
districts3 and reviewed VMAS data for scheduled maintenance services for FY
2007. (See Appendix E.) We identified the number of Preventive Maintenance
Inspections (PMIs)4 to be performed at each VMF, the VPOs where the vehicles
were located, and the VPOs’ distance from the VMFs. We also documented the
number of vehicle maintenance technicians assigned to each VMF unit.

We identified each VMF and LCVs expenditures for scheduled maintenance.
Using the VMAS vehicle work order history, we analyzed the average time to
perform a SPM for the eight5 VMF units reviewed in our sample.

We developed an optimization model that used the above operational data to
establish a baseline, standards, key characteristics, shuttle usage and cost.
Using this data, we established an optimum operating efficiency for each VMF.
Click here to go to Appendix D, “Calculation of Cost Savings,” for the model and
assumptions we used to compute monetary benefits.

We conducted this performance audit from November 2007 through September
2008 in accordance with generally accepted government auditing standards and
included tests of internal controls that we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. We relied on data from VMAS and xxxxxx. We did not audit
these systems, but performed a limited review of data integrity to support our

3
  The Sioux Falls and Billings Districts were excluded from our sample because these VMFs only utilize
LCVs to perform work and have no VMF maintenance technicians.
4
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical
and safety systems are functioning properly.
5
  The random sample was reduced from 10 to eight because we excluded the Anchorage VMF due to their
unique geographical challenges, and the Kansas City VMF because of the difficulty in verifying SPMs
because of multiple vehicle transfers.


                                                     7
Vehicle Maintenance Facilities – Scheduled Maintenance                   DR-AR-08-008
 Service in the Western Area


reliance on the data. We discussed our observations and conclusions with
management officials on July 3, 2008, and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

As shown in the table below, the U.S. Postal Service Office of Inspector General
(OIG) issued four reports related to our objectives.

                            Report                                   Monetary
    Report Title            Number              Final Report Date     Impact
Vehicle                  DR-AR-08-007          September 16, 2008   $27,620,773
Maintenance
Facilities –
Scheduled
Maintenance
Service in the
Southeast Area
Vehicle                  DR-AR-08-006          August 14, 2008      $34,522,159
Maintenance
Facilities –
Scheduled
Maintenance
Service in the
Southwest Area
Maintenance and          DR-MA-07-005          September 21, 2007    $1,571,517
Repair Payments
to Commercial
Vendors Using
Postal Service
Form 8230,
Authorization for
Payment
Management of            DR-AR-06-005          June 14, 2006        $22,796,487
Delivery Vehicle
Utilization

The previous 2008 audits, like this one of the Western Area, are part of a series
of audits on this topic. Like these audits, the Western Area did not complete
SPMs on all vehicles, and did not always integrate both VMF and LCV resources
for optimum efficiency. Management agreed with our findings,
recommendations, and monetary impact.

The 2007 audit concluded that using the Postal Service (PS) Form 8230,



                                               8
Vehicle Maintenance Facilities – Scheduled Maintenance              DR-AR-08-008
 Service in the Western Area


Authorization for Payment, process to pay commercial vendors for maintenance
and repair services was not cost effective and did not include controls to
reconcile payments and ensure repair costs were reasonable. Management
agreed with our findings, recommendations, and monetary impact.

The 2006 audit concluded the Postal Service officials have made significant
strides in reducing costs associated with delivery vehicle expenditures over the
previous 3 years. However, delivery management officials could further improve
the use of vehicles that support delivery operations. Additionally, delivery
officials did not monitor the reasonableness of payments or the need for
contracts with employees for use of their personal vehicles. Management agreed
with our findings, recommendations, and monetary impact.




                                               9
Vehicle Maintenance Facilities – Scheduled Maintenance                                     DR-AR-08-008
 Service in the Western Area


          APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Western Area vehicle maintenance process consistently ensured that nearly
all vehicles received their required scheduled maintenance during FY 2007. Four
units completed all of their SPMs while the other four VMF units ranged between
95 and 99 percent of the required SPMs. (See Table 2.) Management attributed
the missing or past due SPMs to unforeseen personnel issues and the need to
eliminate the backlog of SPMs from the previous year.

          Table 2. Scheduled Preventive Maintenance Performed in FY 2007

                                      Required                          Percentage
                   VMF Location      in FY 2007 Performed               Performed
                   Boise                   1,144        1,144                   100
                   Colorado Springs        1,344        1,336                    99
                   Denver                  7,481        7,372                    99
                   Des Moines              2,195        2,080                    95
                   Phoenix                 7,257        7,257                   100
                   Portland                3,640        3,640                   100
                   Salt Lake City          3,226        3,119                    97
                   Wichita                 1,388        1,388                   100
                   Kansas City6      Not Verified Not Verified                  N/A
                   Total/Average          27,675       27,336                    99
                  Source: VMAS and OIG optimization model

Tracking and Monitoring. Though we determined the sampled VMFs performed
nearly all of their SPMs, the process of verifying scheduled maintenance
performed proved difficult.7 One VMF was initially included in our sample, but
later excluded, because we were unable to substantiate the number of required
and performed scheduled maintenances during 2007. This was in part because
of multiple vehicle transfers, and the way scheduled maintenances are tracked
for VMFs nationwide. Specifically, the maintenance process tracks the status of
vehicles in arrears8 rather than SPMs performed. Vehicles in arrears is an
indication of vehicles with scheduled maintenances not completed, however, any
adjustment to the SPM schedule has the impact of removing all vehicles in
arrears.

Without completing all required scheduled maintenance and repairs, the Postal
Service’s vulnerability to vehicle breakdowns may increase, creating mail delays
and service problems. Further, the number of vehicle accidents could increase,
which would raise costs and affect the well-being of employees and the public.

6
  We excluded this VMF from our sample because of the difficulty and time involved in verifying the number
of SPMs performed because of multiple vehicle transfers. We have no reason to believe the exclusion alters
the Western Area percentage of maintenance performed.
7
  The issue of more easily tracking and monitoring scheduled maintenance requires action by Postal Service
Headquarters and will be addressed in a national capping report on scheduled maintenance.
8
  The “vehicles in arrears” status is a performance measure for VMFs.


                                                   10
Vehicle Maintenance Facilities – Scheduled Maintenance                 DR-AR-08-008
 Service in the Western Area


Since the Postal Service does not plan to begin replacing its current fleet of Long
Life Vehicles (vehicles that are more than 20 years old) until 2018, we believe it
is critical that these vehicles receive the required maintenance.




                                               11
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-008
 Service in the Western Area


                   APPENDIX C: OPTIMUM USE OF RESOURCES

The Western Area did not always optimize its resources to ensure that
maintenance and repair funds were expended in the most efficient and cost
effective manner. We found maintenance officials sometimes used LCVs for
vehicle maintenance and repairs when using VMF resources would have been
more efficient and economical. Likewise, VMF resources were sometimes used
when LCVs would have been more efficient and economical. Additionally, VMF
officials primarily used maintenance employees to shuttle vehicles between
facilities for maintenance and repairs when more economical means existed.

Two factors contributed to these conditions.

    o Optimum Use of VMF and Commercial Resources. The vehicle
      maintenance plan did not consider an optimum combination of both VMF
      and commercial resources.9 Generally, it is more cost effective10 for the
      VMF to perform SPMs on VPO vehicles stationed within 50 miles of the
      VMF. However, a LCV should perform SPMs on vehicles when the VPO
      is more than 50 miles from the nearest VMF. We determined that 554
      SPMs should have been performed at the other site - either the VMF or
      the commercial facility. (See Table 3.)

                 Table 3. VMF and Local Commercial Vendor Resources

                       FY 2007 SPMs                              Site SPMs Were        Total SPMs That
                       Performed by                                 Performed          Could Have Been
                                                                                        More Optimally
                                                                                        Performed by
                                  Local        Total SPMs                   Local       Either VMF or
 VMF Location         VMF        Vendors       Performed         VMF       Vendors      Local Vendors
Boise                    803           341               1,144     29              0                  29
Colorado Springs       1,004           332               1,336    138              0                 138
Denver                 6,107         1,265               7,372         9        100                  109
Des Moines             1,656           424               2,080      95           20                  115
Phoenix                6,601           656               7,257         0           0                      0
Portland               3,561            79               3,640         0         11                   11
Salt Lake City         2,806           313               3,119         4        113                  117
Wichita                  963           425               1,388      35             0                  35
Total                 23,501         3,835              27,336    310           244                  554
Source: VMAS data and OIG optimization model.




9
  The VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization
model estimated the number completed by analyzing all work orders assigned to code 22 (scheduled
maintenance), and with some adjustment, considered all work over 2 hours as a SPM.
10
   Cost effectiveness is based on the overhead costs to transport vehicles between the VMF and the VPO,
vehicle maintenance technician or other VMF personnel to shuttle the vehicle and the vehicle.


                                                   12
                 Vehicle Maintenance Facilities – Scheduled Maintenance                                           DR-AR-08-008
                  Service in the Western Area


                      o Vehicle Shuttling. In most cases, we found that the Postal Service’s
                        national vehicle shuttle agreement or local commercial shuttling services
                        were more cost effective than using VMF maintenance technicians. The
                        Western Area used more than 19,038 workhours for vehicle maintenance
                        technicians to shuttle vehicles rather than perform maintenance. The
                        shuttle hours related to SPMs were equivalent to about 11 vehicle
                        maintenance technician positions at a cost of $819,396.11 (See Table 4.)

                          Table 4. Vehicle Maintenance Technician Hours Used for Shuttling

                                                                                                                                         Cost of
                          Number of          Estimated                         Percentage of        Shuttle                              Shuttle
                           Vehicle           Scheduled                             Direct         Hours Used        Equivalent         Hours Used
                         Maintenance        Maintenance       Total Shuttle    Maintenance             by          Maintenance              by
                         Technicians           Hours          Hours Used        Hours Used        Maintenance      Technician          Maintenance
  VMF Location            Assigned            Available        in FY 2007      for Shuttling      Employees         Positions          Technicians
Boise                               5               7,016              999                 14             908               .52             $39,080
Col. Springs                         10             14,032            2,745                 20            1,400                  .80        60,256
Denver                               58             81,386           15,807                 19            7,101              4.05          305,627
Des Moines                           13             18,242            3,384                 19            1,583                  .90        68,132
Phoenix12                            52             72,966            7,182                 10            2,017              1.15           86,812
Portland                             29             40,693            6,307                 15            3,006              1.71          129,378
Salt Lake City                       29             40,693            8,159                 20            2,481              1.41          106,782
Wichita                                8            11,226              832                  7              542                  .31        23,328
Total/Averages                      204           286,254            45,415                 16           19,038                  11       $819,396
Source: VMAS and OIG Optimization Model

                 We also found the Western Area VMF managers and Vehicle Maintenance
                 Program Analysts (VMPA) to be proactive in managing vehicle maintenance and
                 receptive to the intent of the OIG review and recommendations. During our
                 briefings on the audit’s findings, several concerns were discussed.

                      o The Western Area VMPA, who is responsible for working directly with
                        VMF officials to manage the vehicle maintenance program, is not
                        organizationally aligned to be conducive to effective management of
                        vehicle maintenance. Specifically, the VMPA is aligned under the Area
                        Manager of Maintenance Operations, who is responsible for the area’s
                        mail processing plant, but who has no direct line of authority to district
                        vehicle maintenance functions or individual VMF operations.

                      o VMFs may not always be able to find effective shuttle alternatives and
                        management raised the possibility of union concerns.



                 11
                    This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not
                 relate to any actual reductions in this report.
                 12
                    The VMF was proactive in finding a local commercial vendor for shuttling vehicles for SPMs using a flat
                 labor rate charge and no mileage charge.


                                                                       13
Vehicle Maintenance Facilities – Scheduled Maintenance                DR-AR-08-008
 Service in the Western Area


    o The quality of maintenances performed by LCVs is often not at the same
      level of the VMF, and there is not usually time and staff available to
      monitor commercial vendor work.

    o New Postal Service policies restricting the ability of filling existing
      vacancies caused by attrition and a reduction or elimination of overtime
      could compromise the VMF’s ability to capture cost savings.

    o Finally, management expressed the unique challenges the Western Area
      sometimes faced because of the large and diverse geographical area they
      cover.

The OIG acknowledges the issues and concerns management raised and the
challenges faced by the Postal Service that affect VMF operations.
Notwithstanding these concerns and challenges, in our opinion, opportunities
exist to become more efficient and potentially save money. Specifically, the
Western Area could lower overall VMF operating costs by $1.4 million annually.
These efficiencies, when projected for the 23 VMFs in the Western Area over a
10-year period, could save an estimated $14,251,384. (See Appendix D.)




                                               14
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-008
 Service in the Western Area




                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $14,251,384 in funds put to better use over the next 10 years for the
Western Area’s 23 VMFs.13

                                                     Average           Estimated
                                                     Annual           Savings Over
                          VMF Location               Savings            10 Years
                        Boise                          $13,707             $137,074
                        Colorado Springs                    75,792            757,919
                        Denver                           152,313            1,523,130
                        Des Moines                          64,909            649,087
                        Phoenix                             12,912            129,120
                        Portland                            38,435            384,353
                        Salt Lake City                      90,250            902,504
                        Wichita                             47,373            473,726
                        Totals                   $495,691                  $4,956,913
                        Projected Potential Savings Over
                        23 VMFs in Western Area                          $14,251,384
                       Source: OIG Optimization Model

We calculated the savings based on the following methodology.

     o Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
       Each VPO has a number of Postal Service vehicles that require regular SPM.
       The number of SPMs that a vehicle requires is determined at the beginning of the
       year based on the demands that the assigned route places on the vehicle. All
       SPMs for a given year must be performed on each vehicle; however, the VMF
       may delegate some of this workload to commercial vendors that are near the
       VPOs. We refer to this contract labor as LCVs.

     o The purpose of this audit was to determine the optimal use of VMFs and LCVs to
       perform SPMs. We took into consideration the mechanic labor costs and all
       relevant shuttling costs. As with the SPMs, VMFs may contract out shuttling.
       The Postal Service has a national vehicle shuttle agreement; the OIG used that
       rate in the analysis. However, VMFs can use a less expensive local shuttle
       contractor if one can be identified.



13
  At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $7.1 and $21.3
million. We used the midpoint estimate of $14.25 million in our statistical projection.




                                                       15
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-008
 Service in the Western Area




     o We developed the optimization model to find a least-cost solution based on
       performing all required SPMs. We used the VMFs’ FY 2007 operational data.
       Any SPMs not currently performed by VMFs were considered to be completed by
       LCVs.14 We restricted the scope of this audit to maintenance technicians’ time
       spent performing scheduled maintenance and shuttling activities. This analysis
       draws no conclusions regarding the time dedicated to other activities or how
       maintenance technicians used the remainder of their time.

     o We optimized the VMFs’ scheduled maintenance and shuttling time for each of
       the next 10 years, assuming that the Postal Service would reduce the labor
       contingent by 3.8 percent per year, the historical Western Area attrition rate.15
       This optimization gives the least-cost solution and specifies how the SPMs at
       each VPO should be distributed between the VMFs and the LCVs. The model
       shows which shuttling jobs should be performed by both the VMFs and by
       contractors. The model analyzes all costs and hours (for SPMs at VMFs, SPMs
       at LCVs, VMF shuttling, and contract shuttling). The model also shows the total
       SPMs currently performed by the VMF and local vendors to the total amount that
       could be more optimally performed by VMFs and LCVs.

     o In these optimizations, we assumed that each VMF would operate at a standard
       efficiency. We used the sampled eight VMFs’ average time per SPM as a
       standard for the time it takes to complete an SPM in that area. If a particular
       VMF performed better than this standard, we assumed that the VMF maintained
       its current efficiency.

     o VMAS does not track the number of SPMs accomplished for each vehicle. The
       OIG’s efficiency and optimization model estimated the number of SPMs
       completed by analyzing all work orders assigned to code 22 (scheduled
       maintenance) and considered all work lasting at least 2 hours16 as an SPM. We
       explained the process to VMF managers and then confirmed/adjusted the
       number of SPMs required and completed.

     o We identified cost savings if the VMF was not efficiently using its shuttling time.
       We compared the VMF's total shuttling time to the aggregate time that should be
       needed to perform all of the VMF’s shuttling, assuming that two vehicles were
       transported on each trip. The cost of any excess time was time that could have

14
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs xxx xxxxxxxxxxx xx xxx xxxxxxxxx xxxxxxxx xx xxx xxxxx xxxxxxxxxxx xxxxxxxxxx xxx xxxxxxxxxx xxxxxxx
xxxxxx. Because a VMF may not perform all its required SPMs, we assumed a LCV would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location
with a shortfall. We accomplished this in part by assuming that the baseline case kept the scheduled maintenance
hours and shuttling hours constant at current levels.
15
   The historical attrition rate for Western Area maintenance technicians was determined by averaging the past 7
years (2001 - 2007) of data obtained from the WebEIS.
16
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.


                                                       16
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-08-008
 Service in the Western Area




           been saved, although the actual amount of time that could be saved was likely to
           be higher because the VMFs probably did not perform all of their own shuttling.

       o For our model, we reviewed the average overtime hours per week the VMFs
         used during the first 6 months of FY 2008 determined from the Enterprise Data
         Warehouse system. The number of hours of straight time worked for each
         mechanic per year is 1,754.17

       o Based on the above analyses, assumptions, and constraints, we estimated that
         the Western Area could increase overall VMF efficiency and reduce costs by
         using local commercial resources for shuttling and SPM requirements when
         appropriate. This increased efficiency, when projected over the Western Area’s
         universe of 23 VMFs, will reduce costs by approximately $1.4 million annually, or
         over $14 million over a 10-year period.




17
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”


                                                       17
Vehicle Maintenance Facilities – Scheduled Maintenance                      DR-AR-08-008
 Service in the Western Area


                         APPENDIX E: SELECTED DISTRICTS AND
                           VEHICLE MAINTENANCE FACILITIES

                                 District                        VMF
                            Spokane                      Boise

                            Colorado/Wyoming             Colorado Springs
                                                         Denver

                            Hawkeye                      Des Moines

                            Arizona                      Phoenix

                            Portland                     Portland

                            Salt Lake City               Salt Lake City

                            Central Plains               Wichita




                                                   18
Vehicle Maintenance Facilities – Scheduled Maintenance                       DR-AR-08-008
 Service in the Western Area

                                                                               18
                   APPENDIX F: SCHEDULED MAINTENANCE PROCESS




18
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.


                                                      19
Vehicle Maintenance Facilities – Scheduled Maintenance     DR-AR-08-008
 Service in the Western Area


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-008
 Service in the Western Area




                                                   21
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-008
 Service in the Western Area




                                                   22
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-008
 Service in the Western Area




                                                   23
